No. 20-443
IN THE SUPREME COURT OF THE UNITED STATES

UNITED STATES OF AMERICA, PETITIONER
v.
DZHOKHAR A. TSARNAEV

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
JOINT APPENDIX (VOLUMES 1, 2, AND 3 (VOLUME 3 UNDER SEAL), via email and first-class
mail, postage prepaid, this 14th day of June 2021.
[See Attached Service List]

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2218

June 14, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management Specialist, Office
of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2218. Thank you for your
consideration of this request.

20-443
UNITED STATES OF AMERICA
DZHOKHAR A. TSARNAEV

GINGER D. ANDERS
MUNGAR, TOLLES & OLSON LLP
601 MASSACHUSETTS AVENUE, NW
SUITE 500E
WASINGTON, DC 20001-5369
202-220-1107
GINGER.ANDERS@MTO.COM

